-

                                                                NATIONAL SCIENCE FOUNDATION
                                                                 OFFICE OF INSPECTOR GENERAL
                                                                   OFFICE OF INVESTIGATIONS

                                                        CLOSEOUT MEMORANDUM

      Case Number: 1-08040029                                                                        Page 1 of I



                        We initiated an investigation after receiving anonyinous allegations that NSF Grant funds' to
                a universit$ were used to pay graduate students who were not working on the grant. The
                coinplainant alleged that the Principal Investigator (PI)) approved the payments while knowing that
                the students did not complete the research related to the grant.

                        We received and reviewed financial information and supporting doculnentation for charges to
                this grant from the university. One of the students specifically mentioned in the allegation was not
                supported by the Grant. Other graduate students who were supported with NSF Grant funds
                appeared to be appropriately linked to the project in question.

                       Further revlew of the financial docuinentation identified no questlollable expenditures
                charged to the grant.

                            Accordingly, this case is closed.




                L
               2
               3




    NSF 01G 1701111 2 ( 1 1/02)
